TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Access Controls for the Automated
                     Insolvency System Need Improvement



                                           May 16, 2011

                              Reference Number: 2011-20-046




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


ACCESS CONTROLS FOR THE                                 prevent and detect unauthorized activities. The
AUTOMATED INSOLVENCY SYSTEM                             second reason is due to the inadequate
NEED IMPROVEMENT                                        role-based access control scheme that was
                                                        developed for the AIS. The inadequate access
                                                        control scheme causes managers to
Highlights                                              inadvertently grant unneeded, excessive AIS
                                                        privileges to employees.
Final Report issued on May 16, 2011                     TIGTA also found IRS managers and user
                                                        administrators were not following the
Highlights of Reference Number: 2011-20-046             requirement to use the Online 5081 system to
to the Internal Revenue Service Commissioner            authorize and revoke access to the AIS. In
for the Small Business/Self-Employed Division           addition, some significant actions taken on
and the Chief Technology Officer.                       bankruptcy cases are not logged and reported in
                                                        the AIS Manager Review screen to allow
IMPACT ON TAXPAYERS                                     managers to detect errors and inappropriate
Bankruptcy petitions filed in Federal courts were       activities.
up 32 percent in Calendar Year 2009 compared
                                                        WHAT TIGTA RECOMMENDED
to Calendar Year 2008. The Internal Revenue
Service (IRS) receives notification of a                TIGTA recommended that the Directors,
bankruptcy case because taxpayers are                   Collection Policy, Campus Filing and Payment
required to list their creditors and liabilities when   Compliance, and Advisory, Insolvency, and
filing for bankruptcy protection. The IRS inputs        Quality, Small Business/Self-Employed Division,
the taxpayers’ sensitive information into its           1) identify incompatible duties and implement
Automated Insolvency System (AIS) to track the          policies to segregate those duties; 2) issue a
legal requirements for dealing with the                 memorandum to Insolvency office managers
taxpayers and to protect the Government’s               requiring them to adhere to the new policy when
financial interest. Unauthorized access to the          assigning duties and approving AIS access
AIS could jeopardize taxpayers’ legal rights.           rights; 3) define and document user
                                                        requirements for the AIS based on employee job
WHY TIGTA DID THE AUDIT                                 functions and position descriptions and submit
This audit was initiated because the Small              these requirements to the Applications
Business/Self-Employed Division requested               Development office in a formal work request;
that TIGTA review the AIS access controls.              and 4) issue a memorandum to managers
The objective of the review was to determine            emphasizing the requirement to use the Online
whether the IRS implemented access controls             5081 system to authorize, revoke, and review
for the AIS to protect taxpayers’ personal data         employees’ AIS access authorizations.
and to ensure the Government’s interest is              TIGTA also recommended that the Associate
protected when taxpayers file for bankruptcy.           Chief Information Officer, Applications
WHAT TIGTA FOUND                                        Development, 1) ensure application developers
                                                        have read-only access to the AIS, 2) develop
Although some AIS access controls are in                software to systemically create and assign
place, such as the automatic lockout control            passwords for new AIS users, and 3) create a
and password complexity settings, other                 role-based access control scheme for the AIS.
required access controls have not been
implemented or are not operating effectively.           The IRS agreed with the recommendations and
                                                        stated it had already taken two corrective
TIGTA found many IRS employees have                     actions. The IRS initiated a work request to
excessive privileges on the AIS. The excessive          develop a self-service password reset and auto
privileges are due to two primary reasons. First,       generation feature for the AIS, and the User
managers did not ensure duties were                     Administrator privilege was removed from the
adequately segregated among employees to                Developer privilege level.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 16, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Access Controls for the Automated Insolvency
                             System Need Improvement (Audit # 201020022)

 This report presents the results of our review of the Automated Insolvency System. The overall
 objective of this review was to determine whether the Internal Revenue Service (IRS)
 implemented access controls for the Automated Insolvency System to protect taxpayers’
 personal data and to ensure the Government’s interest is protected when taxpayers file for
 bankruptcy. This review was requested by the IRS’s Small Business/Self-Employed Division
 and was included in the Treasury Inspector General for Tax Administration Fiscal Year 2010
 Annual Audit Plan. This review addresses the major management challenge of Security of the
 IRS.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                                               Access Controls for the Automated
                                             Insolvency System Need Improvement




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Some Access Controls Have Been Implemented to Protect
          Taxpayers’ Data and the Government’s Interest in
          Bankruptcy Petitions ..................................................................................... Page 4
          Employees Have Excessive Privileges on the Automated
          Insolvency System ........................................................................................ Page 4
                    Recommendations 1 and 2: .............................................. Page 11

                    Recommendations 3 and 4: .............................................. Page 12

          The Online 5081 System Is Not Used to Authorize and Revoke
          Access to the Automated Insolvency System ............................................... Page 12
                    Recommendation 5: .................................................................. Page 15

          Significant Automated Insolvency System Actions Taken on
          Bankruptcy Cases Are Not Logged and Reported in the
          Manager Review Screen ............................................................................... Page 15
                    Recommendation 6:........................................................ Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Excessive Privileges............................................................. Page 22
          Appendix V – Glossary of Terms ................................................................. Page 24
          Appendix VI – Management’s Response to the Draft Report ...................... Page 26
            Access Controls for the Automated
          Insolvency System Need Improvement




              Abbreviations

AIS     Automated Insolvency System
ENS     Electronic Notice System
IRS     Internal Revenue Service
MITS    Modernization and Information Technology Services
SB/SE   Small Business/Self-Employed
                                       Access Controls for the Automated
                                     Insolvency System Need Improvement




                                           Background

Bankruptcy petitions filed in Federal courts were up 32 percent in Calendar Year 2009 compared
to Calendar Year 2008.1 This increase followed a 29 percent increase in bankruptcies from
Calendar Year 2007 to Calendar Year 2008. If a bankruptcy petitioner has unpaid Federal taxes,
the Internal Revenue Service (IRS) will receive notification of a bankruptcy petition from 1 of
86 Federal bankruptcy courts around the Nation because the taxpayer is required to list all
liabilities when filing for bankruptcy protection. The IRS inputs the bankruptcy information into
its Automated Insolvency System (AIS), which is the primary system used to protect the
Government’s financial interest in the bankruptcy case and the taxpayer’s legal rights.
The AIS processes, stores, and transmits taxpayers’ Personally Identifiable Information as well
as their tax and financial data. It also interfaces with other bankruptcy subsystems and
processes. Examples include:
    •   The Insolvency Interface Program is a subsystem that automates the transfer of AIS data
        to and from the Integrated Data Retrieval System2 and, when necessary, prevents other
        IRS systems from sending collection notices to taxpayers.
    •   The Automated Discharge System is a subsystem that accesses Integrated Data Retrieval
        System information and takes the appropriate actions to discharge and close the cases.
    •   The Automated Proof of Claim System is a subsystem to prepare a Proof of Claim
        document detailing the Government’s interest in the bankruptcy case.
    •   The Electronic Notice System (ENS) is a process that transfers new bankruptcy case
        information from United States Bankruptcy Courts into the AIS. The ENS notice informs
        the IRS that a taxpayer with a Federal tax liability has entered into a bankruptcy
        proceeding.
The Small Business/Self-Employed (SB/SE) Division’s Collection Policy office owns the AIS
and establishes and oversees policy for the Insolvency program. This program includes
approximately 1,160 employees whose AIS access privileges and levels should be assigned
based on their job responsibilities. For example, employees in the Centralized Insolvency
Operation office3 are given access privileges on the AIS that allow them to 1) add, update, and
close bankruptcy cases on the system; 2) resolve upfront processing issues such as potentially


1
  Figures obtained from the Administrative Office of the United States Courts.
2
  See Appendix V for a glossary of terms.
3
  The SB/SE Division’s Centralized Insolvency Operation office is part of the Campus Compliance Services’ Filing
and Payment Compliance office.
                                                                                                         Page 1
                                     Access Controls for the Automated
                                   Insolvency System Need Improvement



invalid Taxpayer Identification Numbers; and 3) identify collection activity that could violate
Bankruptcy code provisions.
Other bankruptcy cases with complex issues are referred to Field Insolvency office employees,
who are located in nine Territories throughout the country and are part of the Collection
function’s Advisory, Insolvency, and Quality program. These employees prepare the Proof of
Claim, which is filed with the court to protect the Government’s financial interest, and ensure
taxpayers accurately list assets in their bankruptcy schedules.
In addition to the Insolvency program employees who access the AIS, approximately
340 non-Insolvency program employees use the system. These employees work in business
units such as the Office of Appeals, Taxpayer Advocate, and Examination functions and
primarily need view-only access.
In November 2008, the Modernization and Information Technology Services (MITS)
organization Applications Development office upgraded the AIS from 34 Informix databases to a
centralized Oracle database. The upgrade increased the AIS users’ access to all bankruptcy data
across the Nation, a capability needed by many managers and employees we interviewed.
Like its other systems that process or store sensitive data, the IRS must comply with Federal
legislation and IRS procedures that require taxpayer
information to be protected from malicious actions and               Access controls must be
inadvertent modification. In addition, the Federal                  implemented for computer
Government has long recognized that the greatest harm to          systems based on the concept
computer systems has come from authorized individuals                of “least privilege,” which
                                                                 requires employees be given the
engaged in improper activities, whether intentional or              minimum access privileges
accidental.4 Insider threats are often disgruntled                needed to perform their duties.
employees who believe the business or agency has
treated them unfairly and feel justified in taking
malicious actions. To minimize these threats, the IRS
requires access controls be implemented for its computer systems to prevent, limit, and detect
unauthorized access. For example, IRS procedures require access to systems be based on the
concept of “least privilege.”
The Commissioner, SB/SE Division, requested the Treasury Inspector General for Tax
Administration review the access controls for the AIS in Fiscal Year 2010. We focused our
review on the access controls that were implemented to protect the privacy of taxpayer’s data
and reduce the potential for system exploitation. The review was performed at the IRS’s
Centralized Insolvency Operation office in the Campus office in Philadelphia, Pennsylvania; the
Field Insolvency offices in Dallas, Texas, and Oakland, California; the MITS organization’s


4
 Office of Management and Budget Circular A-130, Management of Federal Information Resources,
Appendix III – Security of Federal Automated Information Resources, November 28, 2000.
                                                                                                Page 2
                                 Access Controls for the Automated
                               Insolvency System Need Improvement



Applications Development office in Indianapolis, Indiana; the Computing Center in
Memphis, Tennessee; and the SB/SE Division Headquarters in New Carrollton, Maryland,
during the period March through October 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                                  Access Controls for the Automated
                                Insolvency System Need Improvement




                                Results of Review

Some Access Controls Have Been Implemented to Protect Taxpayers’
Data and the Government’s Interest in Bankruptcy Petitions
The IRS established some access controls in the AIS to protect the taxpayers’ data and the
Government’s interest in bankruptcy cases. Examples include:
   •   A system automatic lockout control disables an AIS user’s account after three
       unsuccessful login attempts. This control prevents a hacker from repeatedly trying to
       guess a user’s password.
   •   The password settings comply with the IRS’s password complexity requirements.
   •   The system displays the required banner to warn unauthorized users that the system is for
       authorized users only.
   •   Direct access to the Oracle database, which is part of the AIS, has been properly
       restricted. Only the database administrators have direct access to the database.
In addition, the Centralized Insolvency Operation office implemented a control to detect
improper ENS notice deletions. The control requires a Centralized Insolvency Operation office
manager to manually review all ENS notice deletions to ensure the deletions were warranted.
Although this detective control improves security and our tests found no improper deletions, the
control is labor intensive. The recommendations in this report will limit employee access to the
ENS, prevent unauthorized employees from deleting ENS notices, and eliminate the need for this
labor-intensive control.
Although some access controls are in place, we found other access controls have not been
implemented or are not operating effectively.

Employees Have Excessive Privileges on the Automated Insolvency
System
Employees have excessive privileges on the AIS due to two primary reasons. First, managers
did not ensure duties were adequately segregated among employees to prevent and detect
unauthorized activities. We found duties assigned to employees that cause a conflict of interest
and violate the IRS’s security requirement to ensure duties are adequately segregated among
different employees to detect errors and fraud.


                                                                                             Page 4
                                     Access Controls for the Automated
                                   Insolvency System Need Improvement



The second reason for employees’ excessive AIS privileges is due to the inadequate role-based
access control scheme that was developed for the AIS, which is presented in Figure 1. The IRS
created the same four general access levels used in the previous Informix-based AIS and four
new special access levels when it converted the system into its Oracle-based version.
We did not find errors or indications of fraud during our review. However, the excessive
privileges on the AIS increase the risks that errors, fraud, or unauthorized activities could be
performed by employees acting alone or in collusion with other employees.
               Figure 1: General Access Levels and Special Access Levels

        General
                                                          Privileges
        Access

     Level 1             Users can 1) query and view the case data; 2) update and delete case
                         data; 3) perform bulk processes such as printing notices and letters to
                         taxpayers; 4) assign cases to employees; 5) view most AIS reports; 6) use
                         support menus to view information such as the attorney/trustee data,
                         employee data, and interest rates; and 7) access the ENS.

     Level 2             Users can 1) query and view the case data, 2) update and delete case
                         data, 3) perform bulk processes such as printing notices and letters to
                         taxpayers, 4) view some AIS reports, and 5) access the ENS.

     Level 3             Users can 1) query and view the case data, 2) update and delete case
                         data, 3) access some reports, and 4) access the ENS.

     Level 4             Users can query and view the case information.

         Special
                                                          Privileges
         Access

     Manager             Users can 1) view and print Manager reports, 2) access the Manager
                         Support Menu to modify attorney/trustee data and employee data and
                         perform bulk case assignments to employees, and 3) view the Manager
                         Review screen to identify case actions taken by employees.

     Analyst             Users can update and delete data in the support tables, such as the
                         interest rates charged to delinquent tax debts.

     User                Users can add new users to the system, assign privileges, unlock user
     Administrator       access accounts, and create passwords.

     Developer           Users can view a menu with 17 options to diagnose interface problems the
                         AIS encounters with other systems. One of the options allows the user to
                         add users to the AIS and assign privileges.

  Source: AIS User Guide and Centralized Insolvency Operation office Senior Technical Advisor.

                                                                                                   Page 5
                                        Access Controls for the Automated
                                      Insolvency System Need Improvement



Duties are not adequately separated among employees to prevent and detect
unauthorized activities
The National Institute for Standards and Technology5 recommends, and IRS procedures require,
that duties be adequately separated among employees to ensure no employee has the authority
and system privilege to disrupt or corrupt a security process or computer system. However,
some IRS officials assign additional duties to managers and employees that, when combined
with the manager or employee’s official duties and AIS privileges, violate the separation of
duties requirement and increase the risks of errors or fraud. Examples include:
    •    Twelve Field Insolvency office managers whose duties include authorizing their
         employees’ AIS access accounts using the Online 5081 (OL5081) system6 were assigned
         the collateral duties of adding users to the system, enabling privileges, unlocking users’
         access accounts, and changing employees’ privileges when the employees are
         temporarily promoted or transferred to another position. The User Administrator
         privileges that the managers gained to perform these duties violate the IRS’s separation
         of duties policy. The critical security processes of authorizing and enabling access to a
         system must be separated among different employees to reduce the risk of errors and
         fraud. Field Insolvency office officials assigned these incompatible duties to a few
         managers in each Territory for the convenience of having a local user administrator.
    •    Field Insolvency office secretaries are responsible for performing administrative tasks,
         such as printing forms and letters to taxpayers and printing reports for managers.
         However, 3 of the 63 Field Insolvency office secretaries had the User Administrator
         privilege level because managers wanted the secretaries to unlock users’ passwords. The
         security process of unlocking passwords is the responsibility of a trained user
         administrator and these highly sensitive privileges should be restricted to only a few
         employees.
    •    Field bankruptcy specialists work the bankruptcy cases assigned to them and represent
         the IRS in court. They are responsible for updating bankruptcy case information in the
         AIS, including the payment history. To perform these duties, the specialists need Access
         Level 2. However, we found four specialists were assigned duties that required the User
         Administrator privileges, which allow the specialists to create new users and assign
         privileges to the users. Specialists should not be assigned User Administrator duties
         because the specialist could assign excessive privileges to employees or create phantom
         users and then login as the phantom user to perform malicious actions in the AIS.



5
  National Institute for Standards and Technology Special Publication 800-53, Recommended Security Controls for
Federal Information Systems and Organizations, Revision 3.
6
  The OL5081 is the official IRS system for requesting the establishment or cancellation of user accounts on all IRS
systems.
                                                                                                            Page 6
                                       Access Controls for the Automated
                                     Insolvency System Need Improvement



      •   114 employees had the AIS privilege to grant other users access to 2 AIS subsystems, the
          Insolvency Interface Program and the Automated Discharge System. These employees
          included Field bankruptcy specialists, revenue officers, Centralized Insolvency Operation
          office clerks, and policy analysts. Although these employees would first have to be
          granted access from the subsystem’s system administrator, the duty of assigning access
          privileges should not be given to these types of employees because they have other duties
          and AIS privileges that pose a conflict of interest. Further, the duty of assigning access
          privileges should be given only to user administrators.
      •   The official duties of the system analyst in the Centralized Insolvency Operation office
          are to help employees and managers that incur problems with the AIS application and
          assign case inventory to managers. To perform these duties, the system analyst needs
          Access Level 1 and Manager privileges. However, this employee was also assigned the
          additional duties of adding new users to the AIS and changing users’ privileges when
          employees separate from the IRS or change job functions. These additional duties
          require the system analyst to have the User Administrator privileges which, when
          combined with his or her Access Level 1 and Manager privileges, violates the IRS’s
          separation of duties policy. The system analyst can update and delete case information
          including ENS notices, access Manager Reports, change key case information using the
          Manager privileges, add new users, assign privileges, and assign passwords. IRS
          procedures state that a user administrator shall have no more capability than appropriate
          to establish a user on a system or to establish a user within an application.
The Government Accountability Office’s internal control standards for Government agencies7
require agencies to identify incompatible duties and implement policies to segregate those duties.
However, the IRS has not completed these critical actions for Centralized Insolvency Operation
office or Field Insolvency office employees. We believe most managers assigned employees the
previously noted incompatible duties because they were unaware of the separation of duties
requirement and which key duties should be segregated. Nine of the 10 managers we
interviewed indicated they believe secretaries should have the same privileges as managers. In
addition, 3 of the 10 managers were unaware of their employees’ AIS privileges.
Although the IRS has not identified incompatible duties for its Insolvency program employees,
the IRS has completed this identification for application developers in the MITS organization.
IRS procedures require application developers be given read-only access on the production
system and should not have duties or privileges that would allow them to alter a production
system. This requirement is due to their detailed knowledge of the system’s security
vulnerabilities and to ensure configuration changes to the system are approved and controlled.
Application developers are responsible for developing and testing system changes in the
development environment. Other employees in the MITS organization Enterprise Operations

7
    Standards for Internal Controls in the Federal Government, (GAO/AIMD-00-21.3.1, November 1999).
                                                                                                      Page 7
                                  Access Controls for the Automated
                                Insolvency System Need Improvement



office are responsible for implementing the changes on the production system. However, we
found 11 AIS application developers were assigned duties on the production system and had
excessive privileges.
   •   The AIS Applications Development office manager informed us that 3 of the
       11 developers do not need access to the AIS. The developers were given these privileges
       to help convert users to the new Oracle-based system. However, after the users were
       converted, the access privileges for the three application developers were not revoked.
   •   We determined most privileges included in the special Developer privilege level allow
       the developer read-only access to diagnose and troubleshoot interface problems that the
       AIS encounters with other systems. However, the eight developers who were assigned
       troubleshooting duties also had Access Level 1 and Manager privileges, which exceeded
       necessary read-only capabilities.
   •   Five of the 11 developers were also given User Administrator privileges that allow them
       to add users to the AIS, elevate users’ privileges, and perform other powerful activities on
       the production AIS.
The AIS Applications Development office manager requested developers be given Access
Level 1, Manager, and the User Administrator privileges to ensure they had all privileges
necessary to troubleshoot users’ problems with the system. The live data in the production AIS
could not be replicated in the development and test environment to which the developers were
limited. In addition, the AIS application developers informed us that other technical employees
in the MITS organization, such as the systems administrators and database administrators, do not
have sufficient AIS knowledge to troubleshoot and diagnose the AIS’s interface problems.
Assigning employees duties that should be segregated among different employees increases the
security risks and could lead to errors or malicious activities. Users can manipulate case data for
their own personal gain or erroneously alter information that affects the IRS’s ability to protect
the Government’s interest in bankruptcy cases.

A role-based access control scheme was not adequately implemented for the AIS
IRS procedures require access privileges to a system be based on a role-based access control
scheme. This security requirement allows the IRS to create system roles for various job
functions such as Field bankruptcy specialist and Field Insolvency office secretary. The
privileges needed to perform the jobs should be assigned to the roles based on the concept of
“least privilege.” User administrators should then assign the appropriate role to the
employee/user. A role-based access control scheme aligns employees’ duties with system
privileges and helps prevent errors and fraud.
We identified approximately 22 different job functions in the Centralized Insolvency Operation
office and Field Insolvency offices. However, the AIS Applications Development office created

                                                                                            Page 8
                                 Access Controls for the Automated
                               Insolvency System Need Improvement



only four general access levels and four special privilege levels for the AIS, as presented
previously in Figure 1. This access control scheme does not adequately allow managers to align
users’ job duties with their AIS privileges and causes managers to inadvertently grant unneeded,
excessive privileges to employees. The following are examples of excessive privileges gained
by some employees. Additional examples are summarized in Appendix IV.
   •   Bankruptcy specialists in the Centralized Insolvency Operation office’s Operations
       Support group investigate and assign a petitioning taxpayer’s tax obligations to the
       non-petitioning spouse, when applicable. These employees also need the ability to view
       and change case information and determine which employee took which specific actions
       on a case. To perform these duties, the bankruptcy specialist needs Access Level 1 and
       Manager privileges. However, along with the needed privileges in Access Level 1, this
       access level gives the specialists unneeded, excessive privileges, such as the ability to
       perform bulk processes (e.g., printing notices and letters to taxpayers), change taxpayer
       payment data using the Payments screen, and delete ENS bankruptcy notices. The
       specialist also gains unneeded Manager privileges such as the capability to change the
       employee data and perform bulk case assignments.
   •   The Automated Processing Control Lead employees in the Centralized Insolvency
       Operations office need Access Level 1 and Manager privileges to reassign cases using the
       Case Assignment Guide, delete ENS notices, and review their group’s work using the
       Manager Review screen. However, these employees also gain unneeded privileges with
       Access Level 1, such as access privileges to the Payments screen and bulk processes.
       They also gain unneeded access with their Manager privileges such as the capability to
       change attorney/trustee data and employee data.
   •   Managers’ responsibilities include reviewing their employees’ work on the AIS,
       modifying the case grade and proof required fields, accessing and printing manager
       reports, and authorizing employees’ AIS access using the OL5081 system. However, the
       Manager privileges also include the privilege to elevate the access levels of AIS users,
       including their own access level. The privilege to modify the access level of a user
       should not be included in the Manager privileges because it conflicts with the managers’
       duty to authorize users’ access to the system. This privilege to modify users’ access
       privileges should be granted to user administrators.
   •   Field Insolvency office secretaries are responsible for administrative tasks such as
       printing forms and letters to taxpayers and printing reports for managers. However, 52 of
       the 63 secretaries had access to the AIS’s Automated Proof of Claim subsystem. Five of
       the eight managers we interviewed stated they wanted the secretary to print reports from
       this subsystem. The Program Analyst for the Automated Proof of Claim subsystem
       confirmed that printing reports is the most common reason for granting secretaries
       access. However, the employees also gained the excessive privilege to modify the data in
       the system. Modifying case information is the job of a trained Insolvency employee,
                                                                                          Page 9
                                 Access Controls for the Automated
                               Insolvency System Need Improvement



       such as a Field bankruptcy specialist. The secretaries could purposely or erroneously
       change the Proof of Claim data.
   •   The User Administrator privileges include the right to create a password for a new access
       account. This right makes the User Administrator privilege level a significant security
       risk because user administrators have the capability not only to create an access account
       and assign high-level privileges, but also to create a password for the new account. The
       user administrator could create an account and password and then use the password to
       login to the AIS and perform malicious actions. The duty and system privilege of
       creating a password should be separated from the duty of creating an access account to
       ensure no one employee has the authority and system privilege to corrupt the security
       process of adding new users to the system. We found 30 employees have the User
       Administrator privileges. The AIS Applications Development office was instructed by
       the MITS organization Enterprise Operations office to create the User Administrator
       privileges to allow the SB/SE Division employees the capability to establish new end
       users on the system.
The AIS Applications Development office manager informed us that, during the 2008 AIS
conversion process, the MITS organization Cybersecurity office directed the conversion be
completed quickly and to keep the new system similar to the previous Informix-based system.
The AIS application developers followed this guidance by implementing the same four general
access controls that were used for the previous AIS and adding the four new special privilege
levels. The application developers also informed us they were unaware of the IRS’s role-based
access control requirement.
In addition to any excessive privileges previously mentioned, the employees’ excessive
privileges could allow them to inadvertently or maliciously modify or delete the taxpayers’ data
in the AIS or perform other unauthorized actions. These actions could prevent the IRS from
protecting the Government’s financial interest in bankruptcy proceedings. *****3(d)********
******************3(d)*******************************************************
****************************************************************************
*****************************************************************************
***************************************************************************
****************************************************************************
********************3(d)************************ **********1*****************
****************************************1**********************************
*************************1*************** *******3(d)************************
****************************************3(d)*********************************
****************************************************************************
****************************************************************.
Management Actions: Subsequent to completing our fieldwork, we determined changes were
made to the Access Level 1 and Manager privileges. Access to the Case Assignment Guide was

                                                                                         Page 10
                                 Access Controls for the Automated
                               Insolvency System Need Improvement



removed from Access Level 1 and the right to modify users’ access levels was removed from the
Manager privileges. We acknowledge both of these changes to the access control scheme
improve security. However, the AIS application developers did not provide evidence to support
that these alterations to the AIS were tested, approved, and made by authorized employees. IRS
configuration control procedures require changes to a production system be documented and
approved using a formal Transmittal document.
In addition, the IRS informed us it removed the User Administrator privilege from the Developer
privilege level after we completed our fieldwork. We did not verify this corrective action.

Recommendations
Recommendation 1: To ensure key duties and system privileges are adequately separated,
the Directors, Collection Policy, Campus Filing and Payment Compliance, and Advisory,
Insolvency, and Quality, SB/SE Division, should 1) identify incompatible duties and implement
policies to segregate those duties, 2) issue a memorandum to Insolvency program managers
requiring them to adhere to the new policy when assigning duties and approving AIS access
privileges, and 3) designate a limited number of employees to perform the User Administrator
duties. These employees should have no more capability than necessary to establish a user on
the AIS.
       Management’s Response: The IRS agreed with this recommendation. A role-based
       access control system is currently being developed which will define the roles of users
       and designate specific access privileges to the users’ defined AIS profiles. Once this
       process is established, a memorandum will be issued to all managers requiring them to
       adhere to the new policy regarding segregation of duties. In addition, the Collection
       Policy office and the MITS organization are reprogramming the AIS to allow users to
       reset their passwords as opposed to the current process in which a user administrator must
       reset passwords. This corrective action would dramatically reduce the number of user
       administrators needed.
Recommendation 2: The Associate Chief Information Officer, Applications Development,
should 1) remove the access account of the three application developers who are not assigned
AIS troubleshooting duties, 2) remove the Access Level 1 and Manager privileges for the eight
developers who are assigned troubleshooting duties and ensure they have only the Developer
privileges and read-only access, 3) remove the User Administrator privilege level for the five
developers who are assigned troubleshooting duties, and 4) develop a software product to
systemically create and assign passwords for new AIS users.
       Management’s Response: The Applications Development office generally agreed
       with this recommendation. The Applications Development office will ensure that access
       to the AIS is limited to personnel assigned AIS troubleshooting duties. In addition,
       Access Level 1 and Manager privileges will be retained for the developers who are

                                                                                         Page 11
                                 Access Controls for the Automated
                               Insolvency System Need Improvement



       assigned troubleshooting duties until the role-based access control scheme is
       implemented. These privileges must be retained as-is until a role-based access control
       scheme is implemented which will allow the developers read-only access to these
       processes. Otherwise, developers lose troubleshooting and maintenance capabilities for
       these processes. The IRS will remove the User Administrator privilege level for the five
       developers who are assigned AIS troubleshooting duties. Finally, a work request has
       been input to request development of a self-service password reset and auto generation
       feature for the AIS.
Recommendation 3: The Directors, Collection Policy, Campus Filing and Payment
Compliance, and Advisory, Insolvency, and Quality, SB/SE Division, should coordinate with the
MITS organization Applications Development office to define and document user requirements
for AIS users based on employee job functions and position descriptions, such as Field
Insolvency office secretary and Centralized Insolvency Operation office automated processing
control clerk. The new user requirements should adhere to the concept of “least privilege,”
include only those privileges needed for each employee to perform their duties, and be submitted
to the Applications Development office in a formal work request.
       Management’s Response: The IRS agreed with this recommendation. A role-based
       access control scheme is being developed. Once this corrective action is completed, a
       formal work request will be submitted to the MITS organization to implement the new
       access levels.
Recommendation 4: The Associate Chief Information Officer, Applications Development,
should 1) create and implement a role-based access control scheme for the AIS based on the
documented user requirements defined by the Directors, Collection Policy, Campus Filing and
Payment Compliance, and Advisory, Insolvency, and Quality, SB/SE Division, and 2) remove
the User Administrator privilege from the Developer privilege level.
       Management’s Response: The IRS agreed with this recommendation. The
       Collection Policy office will submit a work request with documented user requirements
       by November 15, 2011, and the Applications Development office has removed the User
       Administrator privilege from the Developer privilege level.

The Online 5081 System Is Not Used to Authorize and Revoke Access
to the Automated Insolvency System
To request, authorize, and revoke access to IRS computer systems, employees and managers are
required to use the OL5081 system. The employee completes his or her access request on the
OL5081 system, and the manager approves the request. The employees’ approved access
request is then routed to an employee with User Administrator privileges who adds the user to
the system. If the employee needs elevated access privileges, the manager is required to
document his or her approval in the special instructions section of the employees’ OL5081 form.

                                                                                        Page 12
                                 Access Controls for the Automated
                               Insolvency System Need Improvement



The manager is also required to revoke an employee’s access authorizations by updating the
employees’ OL5081 form when the employee no longer needs access. The OL5081 is then
routed to a user administrator who disables the employee’s access on the system.
Some managers are not using the OL5081 system to authorize and revoke their employees’
access authorizations, and some employees assigned user administrator duties are not
deactivating the accounts when required. Of the approximately 1,500 users with an active
account on the AIS, we found:
    •   Fourteen employees separated from the IRS but still had an active account. For nine of
        these employees, the managers revoked their access approval on the OL5081 system but
        the account was not deactivated. The three user administrators we interviewed attributed
        these unauthorized accounts to oversights on their part. Although we found these
        14 accounts had not been used since the employees separated, the accounts still pose an
        unnecessary risk because unauthorized individuals could exploit these accounts.
    •   Managers for 18 current employees revoked their employee’s access approval on the
        OL5081 form but the access account was still active. Six of the seven managers we
        interviewed informed us the employees no longer work in the Insolvency program, do
        not need access to the AIS, and the user administrators should have deactivated the
        employees’ accounts. One manager stated that one of these employees still needs AIS
        access but the manager did not use the OL5081 to reapprove the employee’s access
        account.
    •   Sixteen of the employees’ OL5081 forms contained no evidence that the employee had
        ever requested or been approved to access the AIS. We interviewed seven managers for
        seven of these employees. Five managers informed us their employee does not need AIS
        access and one of the five managers was not sure how the employee gained access. Two
        other managers stated that two of the employees need their current access to the AIS and
        the failure to use the OL5081 system was due to oversights by managers.
We found other instances of managers and user administrators not using the OL5081 system to
revoke users’ access. For 19 (18 percent) of 106 users in our sample that had an inactive
account, managers did not revoke access approval in the OL5081 system. The 19 employees are
still officially authorized to have access and could contact an employee with User Administrator
privileges to have their account reactivated. We attribute this issue to managers bypassing the
OL5081 system and using informal methods to revoke their access authorizations.
Access authorization includes more than general access to a computer system. Authorization
also includes what a user can do once he or she gains access. Managers are required to approve
the employees’ system privileges based on the need to know and the employees’ assigned duties.
The manager must document his or her approval of the employee’s privileges in the special
instructions section of the OL5081 form and review these authorizations during the annual
OL5081 recertification process. However, of the 34 AIS users in our sample, none of their
                                                                                        Page 13
                                      Access Controls for the Automated
                                    Insolvency System Need Improvement



managers approved their access privileges in the OL5081 form. Because the access privileges
are not approved and documented in the OL5081 system, the managers cannot validate the
appropriateness of employees’ AIS privileges during the annual OL5081 recertification.
We interviewed 11 Insolvency program managers to discuss their responsibilities during the
annual OL5081 recertification process. Ten of the 11 managers were unaware of the
requirement to validate their privilege authorizations during the recertification process. The
managers review employees’ OL5081 forms only to determine whether the employee still needs
a general level of access.
We found the same lack of control in our Fiscal Year 2009 review of access controls for the
Automated Collection System.8 In that review, we found none of the managers review the
OL5081 system to determine the appropriateness of the employees’ access privileges and were
unaware of this requirement. In addition, we reported the OL5081 system was not designed with
the functionality needed to facilitate managers’ review of employees’ access privileges. For
example, during the annual OL5081 recertification process, the special instructions section of the
OL5081 system is not accessible from the recertification screens displayed on managers’
computers.
Rather than use the OL5081 system to approve users’ privileges, the managers allow other
employees with user administrator rights to enable system privileges that these other employees
deem appropriate. For example, the Senior Technical Analyst in the Centralized Insolvency
Operation office, who has user administrator privileges, assigns AIS privileges for Centralized
Insolvency Operation office employees based on his knowledge of their duties and what he
thinks the employees need. A manager in the Dallas Field Insolvency office, who has user
administrator rights, also stated that if an employee gets promoted and needs elevated privileges,
he is notified in staff meetings or is verbally informed. The manager then changes the
employee’s privileges in the AIS. In these instances, the manager does not document his or her
approval for the privileges in the special instructions section of the OL5081 system. When
managers do not properly approve and periodically check the appropriateness of their
employees’ access privileges, the risks of unauthorized access to taxpayers’ data is increased.
In our report on the Automated Collection System, we recommended the Chief Technology
Officer make a top priority the identity access provisioning and management solution to enhance
the OL5081 system or replace it with a commercial off-the-shelf software product. We believe
this corrective action is critical to resolve the IRS’s computer security material weakness on
access controls and will also improve access controls for the AIS. We will not repeat the
recommendation in this report.



8
 Additional Security Controls Are Needed to Protect the Automated Collection System (Reference
Number 2010-20-028, dated March 30, 2010).
                                                                                                 Page 14
                                  Access Controls for the Automated
                                Insolvency System Need Improvement



Recommendation
Recommendation 5: The Directors, Collection Policy, Campus Filing and Payment
Compliance, and Advisory, Insolvency, and Quality, SB/SE Division, should issue a
memorandum to managers emphasizing the requirement to use the OL5081 system to authorize,
revoke, and review employees’ AIS access authorizations, including employees’ access
privileges. The memorandum should instruct managers to verify during the annual OL5081
recertification process that their authorizations of employees’ access privileges are appropriate
and documented in the OL5081 system.
       Management’s Response: The IRS agreed with this recommendation. The
       Directors, Collection Policy, Campus Filing and Payment Compliance, and Advisory,
       Insolvency, and Quality, SB/SE Division, will issue a memorandum to their managers to
       emphasize the requirements to use the OL5081 system to authorize, revoke, and review
       employees’ AIS access authorization, including employees’ access privileges. Managers
       will be instructed to verify during the annual OL5081 recertification process that their
       authorizations of employees’ access privileges are appropriate.

Significant Automated Insolvency System Actions Taken on
Bankruptcy Cases Are Not Logged and Reported in the Manager
Review Screen
The AIS Manager Review screen displays most of the actions employees perform on bankruptcy
cases. This screen provides audit trail information and allows managers to review employees’
specific actions. However, we identified five AIS input screens that allow employees to perform
significant actions on a case that are not reported in the Manager Review screen. Users could
alter case information using these five input screens without detection. Managers and
troubleshooters cannot determine who made a specific change to a case when employees use the
following five input screens:
   •   The Proof of Claim screen displays and allows changes to the Proof of Claim information
       that the IRS filed with the bankruptcy court. This screen could be used to fictitiously
       indicate the IRS filed a Proof of Claim when, in fact, the IRS did not file with the court.
   •   The Letter screen is used to generate letters relating to bankruptcy actions and could be
       used by a malicious user to send incorrect or unwarranted letters to taxpayers causing
       confusion or undue stress on the taxpayer.
   •   The Payment Plan screen allows users to alter information related to taxpayer payments
       scheduled or received. A user could manipulate or change the data to show payments
       were received or never received.


                                                                                          Page 15
                                          Access Controls for the Automated
                                        Insolvency System Need Improvement



      •    The Attorney/Trustee Information screen could be used to alter the name, address, or
           other personal data regarding a bankruptcy attorney or trustee. This modification would
           affect all cases associated with the attorney or trustee.
      •    The Refund screen, Request for IDRS9 Generated Refund (IGR) (Form 5792),
           information could be maliciously altered to adjust information pertaining to posting a
           manual refund.
IRS procedures require computer systems be configured to provide audit trail tools that allow
managers to hold employees accountable for their actions on computer systems. Audit trails
should be enabled to monitor and log user activities such as editing and deleting records or data.
The Applications Development office informed us that the SB/SE Division’s Collection function
did not request the changes made to a case using the above five screens be reported in the
Manager Review screen. Therefore, this audit trail capability was not configured for the AIS.
The risk of employees taking unauthorized actions without being detected, using these five
screens, is further increased due to the lack of AIS database audit trail review. The MITS
organization Cybersecurity office informed us that the database audit trails for the AIS are not
being reviewed by the Security Auditing and Analysis System.

Recommendation
Recommendation 6: The Director, Collection Policy, SB/SE Division, should submit a work
request to the Associate Chief Information Officer, Applications Development, requesting the
AIS be configured to report users’ changes to cases using the Proof of Claim, Letter, Payment
Plan, Attorney/Trustee Information, and Refund screens. Use of these five screens should be
reported in the AIS Manager Review screen to provide an audit trail of actions AIS users
performed on the bankruptcy cases.
           Management’s Response: The IRS agreed with this recommendation. A work
           request will be submitted to report users’ changes to cases using the Proof of Claim,
           Letter, Payment Plan, Attorney/Trustee Information, and Refund screens. These changes
           will be captured in the AIS Manager Review screen and a Support Table Review screen
           to provide an audit trail.




9
    Integrated Data Retrieval System.
                                                                                             Page 16
                                 Access Controls for the Automated
                               Insolvency System Need Improvement



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has implemented access controls for the
AIS to protect taxpayers’ personal data and to ensure the Government’s interest is protected
when taxpayers file for bankruptcy. To accomplish this objective, we:
I.     Determined whether key access controls are operating effectively to limit access to the
       AIS.
       A. Determined whether controls limit access to only authorized users performing
          assigned duties. We determined whether users were authorized to have an access
          account and whether the users were authorized to have their system privileges.
          1. Obtained a download of the user account control list for the AIS as of
             May 8, 2010. We determined the access level of the employees on the AIS user
             account control list.
          2. Determined whether users’ access privileges were approved by the user’s
             manager by reviewing the Online 5081 (OL5081) for a judgmental sample of
             34 different users. A judgmental sample was used because we wanted to
             determine whether a control weakness existed and we believed this sample size
             was sufficient to make that evaluation. Also, we did not intend to project the
             sample results to the population. These users worked in the Dallas, Texas, and
             Oakland and San Jose, California, Insolvency offices; Centralized Insolvency
             Operation office in the Philadelphia, Pennsylvania, Campus; and applications
             developers in various offices around the Nation. There were a total of 534 users
             in these offices. We also reviewed the OL5081 to determine whether the
             managers approved (recertified) the access privileges within the last 12 months
             and whether the users’ privileges were reviewed annually by the users’ managers.
          3. For users without an OL5081 record and users with potentially excessive or
             unauthorized privileges, interviewed the users’ managers to determine reasons for
             the specific privileges.
          4. Determined whether users’ roles and responsibilities were aligned with their
             access privileges on the AIS according to the concept of “least privilege.”
          5. Interviewed managers in the Centralized Insolvency Operation office and in the
             Field Insolvency offices to identify employees that have separated within the last
             12 months.


                                                                                         Page 17
                                Access Controls for the Automated
                              Insolvency System Need Improvement



         6. Interviewed Applications Development office personnel to determine whether
            users’ access levels on the AIS can be altered to better align with users’ roles.
      B. Determined whether the logins and passwords of inactive users are inactivated on the
         AIS. The AIS system administrator informed us that users’ accounts cannot be
         deleted from the system if the user worked on a case maintained in the system.
         Instead, the users are deactivated and their login and password are deleted. We
         selected 106 of the 967 inactive users – the 6 employees that separated from the
         Texas Insolvency offices and Oakland/San Jose Insolvency offices during the
         12 months prior to our audit, and the 73 Centralized Insolvency Operation office
         employees and 27 other users randomly selected from the AIS inactive list. We
         randomly picked these 100 users (73 + 27) to ensure each user had an equal chance of
         being selected. We also compared the AIS active users (1,526 users) from the AIS
         user account control list to the OL5081 system to determine whether active users
         were properly authorized using the OL5081 system.
      C. Determined whether duties were adequately separated to limit conflicts of interest
         among key personnel.
      D. Determined whether the system automatically locks out a user after three
         unsuccessful logon attempts.
      E. Determined whether AIS passwords comply with IRS password complexity
         requirements.
      F. Determined whether the AIS displays the required banner to warn unauthorized
         individuals that the system and its information are for authorized users only.
      G. Determined whether access controls for users directly accessing the Oracle 10g
         database are adequate and access privileges are aligned with assigned roles and
         responsibilities. Reviewed user profiles, accounts, roles, and privileges.
II.   Evaluated the case controls that the Centralized Insolvency Operation office implemented
      to process ENS records received from United States Bankruptcy Courts.
      A. Determined whether managers review employees’ ENS deletion actions and
         document their approval.
         1. Requested the Audit Delete Reports for the months of June, August, October, and
            December 2009 and February 2010 and determined whether the appropriate
            managers signed and dated the reports to document their review and approval.
         2. Interviewed managers to determine if cases were deleted for reasons other than
            duplication and whether they found any improper notice deletions or other case
            processing problems since the new Audit Delete Report procedure was
            implemented.

                                                                                         Page 18
                                  Access Controls for the Automated
                                Insolvency System Need Improvement



           3. Selected a statistical random sample of deleted notices from the Audit Delete
              Reports and determined whether the bankruptcy notices were improperly deleted
              by IRS employees. We selected three Audit Delete reports that were generated
              during February 2010. The 3 reports listed a total of 910 deleted ENS bankruptcy
              notices. Our sample of 30 was based on a 5 percent precision rate, 2 percent
              expected error rate, and a 95 percent confidence level. We expanded our sample
              to include the Audit Delete Reports for June, August, October, and December
              2009 to cover the 9-month period prior to our audit. A total of 7,234 ENS notice
              deletions were listed on these Audit Delete reports. Our second sample of
              66 notices was based on a 4 percent precision rate, 2 percent expected error rate,
              and a 98 percent confidence level. Combined with the first sample, we tested a
              total 96 deleted notices.
       B. Determined whether controls can be improved to prohibit unauthorized deletion of
          ENS bankruptcy notices by interviewing AIS Applications Development office
          officials and evaluating the feasibility of limiting the notice deletion privilege to the
          lead technicians in the Centralized Insolvency Operation office’s Automated
          Processing Control function.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: access controls for the AIS and case
controls that the Centralized Insolvency Operation office implemented to process ENS records
received from United States Bankruptcy Courts.




                                                                                             Page 19
                                Access Controls for the Automated
                              Insolvency System Need Improvement



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
W. Allen Gray, Audit Manager
Cari Fogle, Lead Auditor
Midori Ohno, Senior Auditor
Jennifer Clewis, Auditor
Frank O’Connor, Auditor
Monique Queen, Information Technology Specialist




                                                                                     Page 20
                               Access Controls for the Automated
                             Insolvency System Need Improvement



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Director, Advisory, Insolvency, and Quality, Small Business/Self-Employed Division
SE:S:C:AIQ
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
SE:S:CCS:FPC
Director, Collection Policy, Small Business/Self-Employed Division SE:S C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Chief, Office of Appeals AP
       Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 21
                                 Access Controls for the Automated
                               Insolvency System Need Improvement



                                                                                Appendix IV

                             Excessive Privileges

The inadequate role-based access control scheme that the IRS developed for the AIS caused
managers to inadvertently grant unneeded, excessive privileges to users. The following six
examples are in addition to the four examples provided in the body of the report beginning on
page 9.

    Job Function         Assigned Duties/Access Level              Excessive Privileges
                           and Privileges Granted
 Planning and           Review case work done by           Update and delete case information,
 Analysis Quality       employees. (Access Level 2)        Case Assignment Guide, bulk
 Analyst, Campus                                           processes, and delete ENS notices.
                        View the Manager Review
 Compliance             screen to identify actions taken   Manager privileges allow user to
 Services               by employees. (Manager             change attorney/trustee data and
                        privileges)                        employee data, perform bulk case
                                                           assignments, and view Manager
                                                           reports.
 Field Insolvency       Update bankruptcy cases and file Delete ENS notices.
 Bankruptcy             the Proof of Claim. (Access
 Specialist             Level 2)
 Field Insolvency       Query AIS cases regarding          Change and delete case
 Secretary              requests from attorneys and        information, delete ENS notices,
                        taxpayers and perform bulk         Case Assignment Guide, and the
                        printing, such as printing         Payments screen.
                        taxpayer notices and letters.      Manager privileges allow user to
                        (Access Level 2)                   change attorney/trustee data and
                        Some secretaries print Manager     employee data, perform bulk case
                        reports. (Manager privileges)      assignments, and view the Manager
                                                           Review screen.




                                                                                          Page 22
                           Access Controls for the Automated
                         Insolvency System Need Improvement




   Job Function    Assigned Duties/Access Level              Excessive Privileges
                     and Privileges Granted
Non-Insolvency    Need read-only access to view       Update and delete case information,
User              case status, and sign off on case   view and generate reports, assign or
                  history. (Access Level 1, 2,        reassign cases to employees, and
                  or 3)                               perform bulk processes. Users with
                                                      Access Level 1 or 2 can delete ENS
                                                      notices.
Application       Diagnose problems related to the    User Administrator privileges allow
Developer         interfaces between the AIS and      user to add users, create passwords,
                  other systems.                      and assign privileges.
                  (Developer privileges)
Troubleshooter    View case information to help       Update and delete case information
                  users with their AIS problems.      and ENS notices, and perform bulk
                  (Access Level 1, Manager,           processes. Manager privileges
                  Analyst, and User Administrator     allow user to perform bulk case
                  privileges)                         assignments. User Administrator
                                                      privileges allow user to create new
                                                      users, create passwords, and assign
                                                      privileges.




                                                                                    Page 23
                                 Access Controls for the Automated
                               Insolvency System Need Improvement



                                                                               Appendix V


                               Glossary of Terms

            Term                                          Definition
Automated Collection System     A telephone contact system through which telephone assistors
                                collect unpaid taxes and secure tax returns from delinquent
                                taxpayers who have not complied with previous notices.
Campus                          The data processing arm of the IRS. The campuses process
                                paper and electronic submissions, correct errors, and forward
                                data to the Computing Centers for analysis and posting to
                                taxpayer accounts.
Computing Center                IRS Computing Centers support tax processing and
                                information management through a data processing and
                                telecommunications infrastructure.
Concept of “least privilege”    A key internal control concept and IRS requirement. The
                                intent to minimize employees’ system access privileges to the
                                minimum needed to perform assigned duties.
Configuration Control           The management of security features and assurances through
                                control of changes made to hardware and software throughout
                                the life cycle of a computer system.
Integrated Data Retrieval       A major IRS application consisting of databases and operating
System                          systems that support IRS employees working active tax cases
                                within each business function across the IRS. This system
                                allows employees to post transaction updates to the IRS
                                master files.
Informix                        Informix is a relational database management system
                                developed by the International Business Machines
                                Corporation and is used for online transaction processing.




                                                                                       Page 24
                              Access Controls for the Automated
                            Insolvency System Need Improvement




              Term                                     Definition
Online 5081 System           Virtually every customer within the IRS must utilize the IRS
                             Form 5081, Information System User Registration/Change
                             Request, to request access to information systems and
                             applications. The OL5081 system replaces the paper
                             Information System User Registration/Change Request
                             (Form 5081) with an automated, standard process. It provides
                             automated submission, approval, recertification, and filing of
                             the Form 5081 on an enterprise-wide basis.
Oracle                       The Oracle Database is a relational database management
                             system produced by the Oracle Corporation.
Proof of Claim               An official form filed with a Bankruptcy court describing the
                             reason a debtor owes creditor money, which typically sets
                             forth the amount of money owed.
Role-Based Access Control    A security approach to restricting employees’ access to
                             computer systems. System roles are created for an
                             organization’s various job functions. The minimum privileges
                             needed to perform the job functions are assigned to the roles.
                             The role is then assigned to a system user.
Security Auditing and        The Security Audit and Analysis System implements a data
Analysis System              warehousing solution to provide online analytical processing
                             of audit trail data.
Separation of Duties         A key internal control concept. The objective is for
                             management to assign duties and implement checks and
                             balances upon the activities of employees to prevent errors and
                             fraud. For example, organizations separate the duties of
                             receiving customers’ checks and approving account write-offs,
                             and depositing cash and reconciling bank statements.
Transmittal                  The purpose of a Transmittal is to either document changes to
                             an operating system or database (whether it is a configuration
                             change or a patch) or to initiate action by field personnel
                             (usually a systems administrator) for applying patches, making
                             required configuration changes, and installing software.




                                                                                    Page 25
             Access Controls for the Automated
           Insolvency System Need Improvement



                                                 Appendix VI

Management’s Response to the Draft Report




                                                      Page 26
  Access Controls for the Automated
Insolvency System Need Improvement




                                      Page 27
  Access Controls for the Automated
Insolvency System Need Improvement




                                      Page 28
  Access Controls for the Automated
Insolvency System Need Improvement




                                      Page 29
  Access Controls for the Automated
Insolvency System Need Improvement




                                      Page 30
  Access Controls for the Automated
Insolvency System Need Improvement




                                      Page 31
  Access Controls for the Automated
Insolvency System Need Improvement




                                      Page 32
